Divulgación
MasterCard Standard
TASAS DE INTERESES Y CARGOS

1.99%
Tasa de Porcentaje Anual (“APR”)
Para Compra de Mercancía y Servicios

APR para Transferencias de Balances de otras
Instituciones Financieras

APR para Adelantos en Efectivo

de la tarjeta.

APR introductorio por los primeros 6 meses a partir de la fecha de emisión
Luego de este periodo, su APR será desde

9.70%

hasta

18.70%, basado en su historial de crédito y sujeto a los requisitos crediticios
establecidos por Oriental Bank (“Oriental”). Este APR variará de acuerdo al mercado
basado en la Tasa Preferencial de los Estados Unidos (Prime Rate).1
1.99% APR introductorio por los primeros 6 meses a partir de la fecha de emisión de la
tarjeta. Luego de este periodo, APR será desde 9.70% hasta 18.70%, basado en su
historial de crédito sujeto a los requisitos crediticios establecidos por Oriental. Este APR
variará de acuerdo al mercado basado en la Tasa Preferencial de los Estados Unidos
(Prime Rate).1
22.74%, este APR variará de acuerdo al mercado basado en la Tasa Preferencial de los
Estados Unidos (Prime Rate).
29.99%
Este APR aplicará si usted realiza un pago tardío.2

APR por Penalidad y cuándo aplicará

Pago de Intereses

Cargo Mínimo por Intereses
Para Consejería Sobre Tarjetas de Crédito por la
Consumer Financial Protection Bureau (“CFPB”)

¿Hasta cuándo aplicará el APR por penalidad? Si sus APRs aumentaran por esta razón,
el APR por penalidad aplicará hasta que el Banco reciba 6 pagos mínimos consecutivos en
o antes de sus fechas de su vencimiento.
Su fecha de límite de pago será de por lo menos de 21 días después del cierre de cada
ciclo de facturación. No le cobraremos intereses sobre compras de mercancía y servicios
si usted paga la totalidad de dicho balance todos los meses en o antes de la fecha de
vencimiento de su pago. No obstante, en las transacciones de adelantos en efectivo y
transferencias de balances se le cobrará intereses desde la fecha en que se efectúen los
desembolsos de estas transacciones.
Si se le cobrara intereses, el cargo no será menor de $1.50
Para más información acerca de los factores a considerar al solicitar o utilizar una tarjeta de
crédito visite la página de Internet de la CFPB en
http://www.consumerfinance.gov/learnmore

CARGOS
Cuota Anual
Cargos por transacciones
•
Adelantos en Efectivo (incluye transferencias
de balances)
•
Cambio de Moneda
Cargos por Penalidad
•
Cargos por Mora
•
Cheque devuelto

Ninguno
$10 Cargo por emisión de cada tarjeta adicional (si aplica)
2% del total del adelanto en efectivo (mínimo $2.00 y máximo $10.00)
1% del monto de cada transacción en dólares US
Hasta un máximo de $35.00
$10.00

¿Cómo calculamos sus balances?: Utilizamos un método llamado Balance Diario Promedio (incluyendo compras nuevas de mercancías y
servicios).
Pérdida de las tasas introductorias: Podemos terminar su APR introductorio y aplicar el APR por incumplimiento si usted realizara un pago tardío.
1

Tasa Preferencial (Prime Rate): Las tasas variables indicadas son certeras basándose en la tasa preferencial de 3.25%.
margen de 6.45% a 15.45% a la tasa preferencial para determinar los APRs de Compras y de Transferencias de Balances.
2

Hemos añadido un

Pago tardío significa que el pago mínimo no es recibido durante un periodo de 60 días consecutivos a partir de la fecha de vencimiento del pago.

La información divulgada sobre tasas, APRs y cargos aplicables a la tarjeta de crédito MasterCard Standard es certera a marzo de 2020. La misma
podría haber variado. Para obtener información actualizada sobre esta tarjeta puede escribirnos a PO Box 195115, San Juan, PR 00919-5115 o
llamarnos al 1.800.981.5554.
Oriental Bank es miembro FDIC.

